                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 110070029                                                                    Page 1 of 1



        This case was opened pursuant to a proactive review. The initial review of documents found
        evidence of: 1) plagiarism in several NSF proposals and project reports submitted by a company 1,
        and 2) possible overlap between a few sets of SBIRJSTTR awards funded by various federal
        agencies.

        Based on the initial evidence of plagiarism, we sent inquiry letters to two Pls2 at the company.
        We received their responses and determined the identified lines.did not meet OIG's threshold for
        a referral.

        We identified two sets of potentially duplicative proposals, but after further review, determined
        neither set of proposals appears to be duplicative.

        Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
